               The Internal Revenue Service Should Ensure
                  the Root Causes of Business Systems
                Modernization Performance Problems Are
                         Successfully Addressed

                                  December 2004

                       Reference Number: 2005-20-014




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  December 3, 2004


      MEMORANDUM FOR CHIEF INFORMATION OFFICER


      FROM:                        Gordon C. Milbourn III
                                   Acting Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - The Internal Revenue Service Should
                                   Ensure the Root Causes of Business Systems Modernization
                                   Performance Problems Are Successfully Addressed
                                   (Audit # 200420033)


      This report presents the results of our review of the Business Systems Modernization
      (BSM) Challenges Plan. The overall objectives of this review were to determine
      whether the Internal Revenue Service (IRS) had taken actions to address the
      recommendations made by various studies during Calendar Year 2003 for improving
      the BSM program and had developed a plan to measure the success of these actions.
      In summary, the IRS is currently engaged in the BSM program to modernize its systems
      and associated processes. All of the BSM projects initiated to this point have
      experienced cost overages and schedule delays. In mid-2003, the IRS and the PRIME
      contractor1 initiated four studies to help identify the root causes of the problems
      hindering the BSM effort and make recommendations to remedy the problems
      identified.
      Key IRS executives and stakeholders reviewed the results of the four studies, quickly
      acknowledged BSM shortcomings, and developed actions to address the studies’
      recommendations and resolve longstanding BSM issues. Collectively, these actions
      became known as the BSM Challenges Plan.
      However, we determined the studies’ recommendations were not fully addressed by the
      BSM Challenges Plan; no measurement plan was created to determine if the actions
      taken resulted, or will result, in actual improvements in the BSM program; and many

      1
       To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
      contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
      oversee the work of the PRIME contractor.
                                                     2

BSM Challenges Plan actions were closed before all significant activities were
completed.
Upon presenting our preliminary results to the IRS, we were informed the Associate
Chief Information Officer (ACIO), Modernization Management, met with and interviewed
a number of individuals in the IRS business units, the Treasury Inspector General for
Tax Administration (TIGTA), the Government Accountability Office (GAO), and the
Office of Management and Budget. The ACIO also reviewed the four studies, as well as
various reports prepared by the TIGTA and the GAO. As a result, the ACIO determined
what he believed to be the key barriers to success in the BSM program and created a
plan to address these barriers. This plan includes 7 high-level key focus areas and
16 detailed highest priority initiatives to deal with the root causes that are creating the
barriers.
The ACIO, Modernization Management, and his staff also performed an analysis of the
BSM Challenges Plan and the activities taken to close each of its 48 actions. We were
provided with documentation showing several BSM Challenges Plan actions have been
reopened and others have additional follow-up activities planned; however, IRS officials
informed us these new and additional follow-up activities were not being tracked using
the Item Tracking, Reporting, and Control (ITRAC)2 database.
To assist the IRS in improving the BSM program, we recommended the Chief
Information Officer (CIO) reevaluate the study recommendations that were not
addressed by the BSM Challenges Plan to determine whether corrective actions should
be taken, create an overall measurement plan to determine whether activities are
leading to improvements in the BSM program, ensure stakeholders understand
additional work is necessary to complete actions in the BSM Challenges Plan beyond
what was originally reported, and place new activities in the ITRAC database for
tracking and closure purposes.
Management’s Response: The CIO agreed with our recommendations and stated there
was a lot of work ahead to continue to mature the BSM program. However, the CIO
pointed to several improvements and accomplishments reflecting improved program
performance. For instance, the CIO stated cost and schedule performance had
dramatically improved in 2004 and strides were being made in the hiring of outside
experts and aligning BSM workload with IRS and PRIME contractor management
capacity.
The CIO also responded to our specific recommendations. The new ACIO, BSM, has
thoroughly reviewed the study recommendations and is actively working many of them.
Justifications have been documented for those study recommendations not being
pursued. In addition, the BSM program will be developing measures similar to those
outlined in our report. Also, presentations have been made to the stakeholder
community on the status of improvement plans, and the ITRAC database has been


2
 The BSM Risk Management Plan provides that all modernization organizations use the ITRAC database to record
and update the status of issues.
                                           3

updated. Management’s complete response to the draft report is included as
Appendix IX.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
   The Internal Revenue Service Should Ensure the Root Causes of Business Systems
           Modernization Performance Problems Are Successfully Addressed




                                                  Table of Contents


Background ............................................................................................... Page 1
The Business Systems Modernization Challenges Plan Did
Not Address All Study Recommendations................................................. Page 3
         Recommendation 1: .......................................................................Page 6

The Business Systems Modernization Challenges Plan Did
Not Include Measures to Determine Whether Actions Taken
Were Successful ....................................................................................... Page 6
         Recommendation 2: .......................................................................Page 10
         Recommendations 3 and 4: ...........................................................Page 11

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 12
Appendix II – Major Contributors to This Report ....................................... Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Study Recommendations Not Addressed or
Only Partially Addressed by the Business Systems Modernization
Challenges Plan ........................................................................................ Page 15
Appendix V – Enterprise Life Cycle Overview ........................................... Page 17
Appendix VI – Key Focus Areas and Highest Priority Initiatives................ Page 21
Appendix VII – Example Measures for Evaluating Business
Systems Modernization Challenges Plan Actions ..................................... Page 23
Appendix VIII – Business Systems Modernization Challenges Plan
Actions That Were Closed Prematurely .................................................... Page 25
Appendix IX – Management’s Response to the Draft Report .................... Page 27
   The Internal Revenue Service Should Ensure the Root Causes of Business Systems
           Modernization Performance Problems Are Successfully Addressed

                                The Internal Revenue Service (IRS) is currently engaged in
Background
                                an effort, known as Business Systems Modernization
                                (BSM), to modernize its systems and associated processes.
                                To facilitate the success of its modernization efforts, the IRS
                                hired the Computer Sciences Corporation as the PRIME
                                contractor and integrator for the BSM program and created
                                the BSM Office (BSMO) to guide and oversee the work of
                                the PRIME contractor.
                                Since its inception, the BSM program has experienced
                                management problems at both the program and project
                                levels, as well as problems between the IRS and the PRIME
                                contractor. All of the BSM projects initiated to this point
                                have experienced cost overages and schedule delays.
                                For example, by May 2003, the Customer Account Data
                                Engine (CADE)1 project had missed its deployment date for
                                the third time and was over 2 years behind schedule. By the
                                summer of 2003, another high profile project, the Integrated
                                Financial System (IFS),2 was also experiencing significant
                                cost increases and the project team was concerned about
                                potential schedule delays.3
                                In mid-2003, the IRS and the PRIME contractor initiated the
                                following four studies to help identify the root causes of the
                                problems hindering the BSM effort and make
                                recommendations on remedying the problems identified.
                                •   CADE Study – The Software Engineering Institute
                                    (SEI)4 conducted a study of the CADE project.
                                •   PRIME Contractor Internal Study – The Bain and
                                    Company conducted an internal study of the PRIME
                                    contractor.
                                •   IRS Root Cause Study – The BSMO conducted an
                                    internal study of the BSM program.


                                1
                                  The CADE is the foundation for managing taxpayer accounts in the
                                IRS’ modernization plan.
                                2
                                  The IFS is intended to address administrative financial management
                                weaknesses.
                                3
                                  The IFS project team eventually experienced a 1-year delay from the
                                original deployment date.
                                4
                                  The SEI is a Federally Funded Research and Development Center
                                whose purpose is to help others make measured improvements in their
                                software engineering capabilities.
                                                                                               Page 1
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed

                             •   High-Level Assessment of the IRS Office of
                                 Procurement Study – The Acquisition Solutions,
                                 Incorporated, conducted a study of the IRS’ acquisition
                                 program.5
                             Key IRS executives and stakeholders reviewed the results of
                             the 4 studies in October 2003 and created 46 actions to
                             address the study recommendations. These 46 actions
                             collectively became known as the BSM Challenges Plan. In
                             December 2003, the IRS Oversight Board issued a special
                             report6 containing 9 recommendations, 2 of which were
                             added to the 46 actions already identified. The 48 actions
                             were each assigned an implementation deadline of 30, 90, or
                             180 days and were entered into the Item Tracking,
                             Reporting, and Control (ITRAC)7 database in order for the
                             IRS to monitor activity on each action.
                             The IRS selected the Deputy Commissioner, Tax Exempt
                             and Government Entities (TE/GE) Division, to oversee the
                             implementation of the actions, beginning on
                             November 10, 2003. On May 1, 2004, the Deputy
                             Commissioner, TE/GE Division, issued a close-out report
                             detailing the activities taken to close 44 of the 48 actions
                             plus planned activities and projected closing dates for the
                             remaining 4 actions. Further oversight responsibilities were
                             then assumed by the Associate Chief Information Officer
                             (ACIO), Modernization Management.
                             This review was performed at the BSMO facilities in
                             New Carrollton, Maryland, during the period May through
                             September 2004. The audit was conducted in accordance
                             with Government Auditing Standards. The scope of this
                             audit did not include verifying the actions taken as part of
                             the BSM Challenges Plan were completed or ensuring
                             completed actions achieved the intended results. Detailed
                             information on our audit objectives, scope, and


                             5
                               While the main focus of the study was not on the BSM program, BSM
                             acquisition weaknesses were addressed.
                             6
                               Independent Analysis of IRS Business Systems Modernization (dated
                             December 2003).
                             7
                               The BSM Risk Management Plan provides that all modernization
                             organizations use the ITRAC database to record and update the status of
                             issues.
                                                                                            Page 2
     The Internal Revenue Service Should Ensure the Root Causes of Business Systems
             Modernization Performance Problems Are Successfully Addressed

                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  This audit was conducted while changes were being made at
                                  the BSM program level. We communicated the results of
                                  our fieldwork to the BSMO in August 2004. Any changes
                                  that have occurred since we concluded our analyses are not
                                  reflected in this report. As a result, this report may not
                                  reflect the most current status.
                                  IRS executives and key stakeholders quickly acknowledged
The Business Systems
                                  BSM shortcomings and developed actions, as part of the
Modernization Challenges Plan
                                  BSM Challenges Plan, to resolve longstanding BSM issues.
Did Not Address All Study
                                  However, we determined that the study recommendations
Recommendations
                                  were not fully addressed by the BSM Challenges Plan. In
                                  addition, some of the activities undertaken as part of the
                                  BSM Challenges Plan did not fully address the actions in
                                  the Plan.
                                  Some study recommendations were not addressed and
                                  others were only partially addressed by the BSM
                                  Challenges Plan
                                  The results of the four studies were presented to key IRS
                                  executives and stakeholders on October 9, 2003. We
                                  reviewed the 4 studies and identified 21 BSM-related
                                  recommendations. We matched the 48 actions in the
                                  BSM Challenges Plan to the 21 recommendations and
                                  determined 9 of the recommendations were adequately
                                  addressed by the BSM Challenges Plan, 9 were partially
                                  addressed, and 3 were not addressed at all, as shown in
                                  Chart 1. See Appendix IV for a list of these study
                                  recommendations.




                                                                                          Page 3
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed

                                    Chart 1: Study Recommendations Addressed by the
                                                  BSM Challenges Plan




                             Source: Treasury Inspector General for Tax Administration (TIGTA)
                             analysis.

                             For example, the IRS root cause study recommended
                             eliminating funding emergencies by timely requesting spend
                             plan changes. We could find no mention of this action in
                             either the BSM Challenges Plan or the ITRAC database. As
                             another example, the PRIME contractor internal study
                             recommended enforcing compliance with requirement
                             definition and program management processes. Part of this
                             recommendation included increasing formal Enterprise Life
                             Cycle (ELC)8 training for the IRS and the PRIME
                             contractor. While we could find documented activities for
                             several parts of the overall recommendation, we could not
                             find any documented activities requiring ELC training for
                             either the IRS or the PRIME contractor.
                             When we presented our preliminary observations to IRS
                             officials, we were informed the BSM Challenges Plan was
                             done in a somewhat random manner, meaning key IRS
                             executives and stakeholders did not take each study
                             recommendation and generate an action item to address it.
                             In addition, the ACIO, Modernization Management, later
                             informed us he believed the IRS did not address all
                             recommendations because certain recommendations were
                             deemed lower priority and actions were already underway to
                             address the intent of other study recommendations. Thus,
                             some study recommendations did not get addressed as part


                             8
                              BSM processes and procedures are documented within the ELC. See
                             Appendix V for an overview of the ELC.
                                                                                         Page 4
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed

                             of the BSM Challenges Plan. Without addressing or
                             creating a plan for addressing all conditions within the
                             studies, the IRS runs the risk of having past problems
                             continue to plague the BSM program.
                             Additional activities are needed to fully address BSM
                             Challenges Plan actions
                             We reviewed the activities taken, or scheduled, to close the
                             48 actions listed in the BSM Challenges Plan Close-Out
                             Report and identified 3 instances where the completion
                             activities did not fully address the action. The BSM
                             Challenges Plan action title and the gaps we identified
                             follow.
                             •   Ensure projects strictly follow the ELC and
                                 appropriate alternatives within the ELC are selected.
                                 While we identified activities taken to ensure
                                 appropriate alternatives within the ELC are selected, we
                                 could not find any activities to ensure that projects
                                 strictly follow the ELC.
                             •   Designate business architects for all projects to
                                 support business insight throughout the project life.
                                 Instead of designating business architects for each
                                 project, the IRS designated business requirements
                                 directors for each project. For example, we determined
                                 the CADE business requirements director had no
                                 systems architecture experience. During discussions on
                                 a preliminary version of this report, BSMO officials
                                 stated it was never their intention to elicit systems
                                 architecture assistance from the IRS business units.
                                 Therefore, the IRS decided to perform activities under
                                 this BSM Challenges Plan action that would better align
                                 with the IRS modernization model.
                             •   Strengthen the development environment by
                                 expanding capacity, greater automating testing [sic],
                                 separating IF [infrastructure] development. This is
                                 one of the four actions that remained open when the
                                 BSM Challenges Plan Close-Out Report was issued.
                                 Our review of the activities scheduled to close this
                                 action identified no activities for automating testing or
                                 separating the infrastructure environment.

                                                                                    Page 5
     The Internal Revenue Service Should Ensure the Root Causes of Business Systems
             Modernization Performance Problems Are Successfully Addressed

                                  Management Actions: The ACIO, Modernization
                                  Management, met with and interviewed a number of
                                  individuals in the IRS business units, the TIGTA, the
                                  Government Accountability Office (GAO), and the Office
                                  of Management and Budget (OMB). The ACIO also
                                  reviewed the four studies, as well as various reports
                                  prepared by the TIGTA and the GAO. As a result, the
                                  ACIO, Modernization Management, determined what he
                                  believed to be the key barriers to success in the BSM
                                  program and created a plan to address these barriers. The
                                  ACIO established 7 high-level key focus areas (KFA) and
                                  developed 16 detailed highest priority initiatives (HPI) to
                                  deal with these root cause problems. See Appendix VI for a
                                  list of the 7 KFAs and the 16 HPIs. Several of the HPIs are
                                  BSM Challenges Plan actions.

                                  Recommendation

                                  To ensure all of the conditions in the studies are addressed,
                                  the Chief Information Officer (CIO) should:
                                  1. Reevaluate the study recommendations that were not
                                     completely addressed by the BSM Challenges Plan and
                                     determine whether corrective actions should be taken as
                                     part of either the 7 KFAs and16 HPIs or future action
                                     items. If it is determined no actions are needed, the
                                     reasons should be documented for future reference.

                                  Management’s Response: The new ACIO, BSM, has
                                  thoroughly reviewed the study recommendations and is
                                  actively working many of them. In addition, justifications
                                  have been documented for those study recommendations not
                                  being pursued.
                                  Management best practices indicate measures should be
The Business Systems
                                  developed to determine whether actions taken actually result
Modernization Challenges Plan
                                  in intended improvements. While the BSM Challenges Plan
Did Not Include Measures to
                                  included reasonable actions, no measurement plan was
Determine Whether Actions
                                  created to determine whether the actions taken resulted, or
Taken Were Successful
                                  will result, in actual improvements in the BSM program. In
                                  addition, many actions were closed before all significant
                                  activities were completed.


                                                                                         Page 6
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed

                             The BSM Challenges Plan contained no criteria for
                             measuring the effect of actions
                             The BSM Challenges Plan included several management
                             controls such as details of specific activities that needed to
                             be completed, assignment of responsibility for completing
                             specific activities, and planned completion dates. However,
                             the BSM Challenges Plan Close-Out Report, generally, did
                             not include plans for determining whether the implemented
                             actions were, or would be, effective in meeting their
                             designated goal.
                             Management expert W. Edward Deming gained widespread
                             attention in the 1980’s after being featured in a National
                             Broadcasting Corporation documentary titled “If Japan Can,
                             Why Can’t We?” Deming expanded the idea that quality
                             can be measured and developed what is known as the
                             Deming Cycle of Plan-Do-Check-Act (PDCA). The PDCA
                             cycle is a well-known model for continuous process
                             improvement that includes, 1) Plan: Design or revise
                             business processes to improve results, 2) Do: Implement
                             the plan and measure its performance, 3) Check: Assess the
                             measurements and report the results to decision makers, and
                             4) Act: Decide on and implement changes needed to
                             improve the process.
                                    Chart 2: Plan-Do-Check-Act Visual Representation




                             Source: TIGTA representation of W. E. Deming’s PDCA Cycle.

                             The IRS planned the actions that need to be taken for
                             improvement; however, it did not make plans to measure the
                             success of its efforts. If measures are not employed to
                                                                                          Page 7
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed

                             determine the effectiveness of BSM Challenges Plan
                             actions, the IRS will only be able to subjectively determine
                             whether the BSM Challenges Plan activities were
                             worthwhile. In addition, the IRS will have no insight into
                             what activities were successful as it moves forward with
                             future improvement efforts to address the root causes of
                             BSM program challenges.
                             Our analysis of the BSM Challenges Plan found there were
                             no overall criteria for determining whether taking the
                             actions set forth in the Plan will lead to any improvement,
                             and many activities in the Plan did not lend themselves
                             easily to the use of quantitative measurement. In addition,
                             most action items were mapped to multiple study
                             recommendations, which made it difficult to understand
                             what study conditions were being addressed. Without the
                             condition to be corrected clearly in mind, it is not feasible to
                             identify suitable measurement activities.
                             Based on the interviews we conducted with individuals
                             associated with the formulation and implementation of the
                             BSM Challenges Plan, we determined the IRS had not
                             analyzed the BSM Challenges Plan actions to determine
                             what metrics would be used to measure the effectiveness of
                             the actions. We were advised that the success of BSM
                             Challenges Plan actions could be determined by assessing
                             whether future project cost and schedule estimates were
                             met.
                             We concluded more detailed measures could also be used to
                             determine which of the multiple challenges within the BSM
                             program were being adequately addressed and which
                             challenges still needed further work. To assist the IRS with
                             identifying measures for future activities, we have created
                             potential measures that could have been used to measure the
                             short-term and long-term success of BSM Challenges Plan
                             actions. See Appendix VII for a list of these suggested
                             measurements.
                             Actions taken under the BSM Challenges Plan were
                             closed prematurely
                             In addition to not providing measures to determine the
                             overall success of BSM Challenges Plan actions, we
                             determined several actions within the BSM Challenges Plan

                                                                                      Page 8
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed

                             were closed before significant activities were completed.
                             The BSM Challenges Plan Close-Out Report listed
                             48 actions, 44 of which were classified as ‘closed’ and 4 as
                             ‘open.’9 This status was reported to the Congress and the
                             press. We determined 10 of the ‘closed’ actions still had
                             significant work activities to be completed. Seven of these
                             10 actions concerned staffing issues (funding, hiring,
                             locating individuals) and 3 concerned completing
                             documentation. See Appendix VIII for the listing of these
                             10 actions.
                             Management Actions: Upon presenting our preliminary
                             results to the ACIO, Modernization Management, we were
                             informed he and his staff had also performed an analysis of
                             the BSM Challenges Plan and the activities taken to close
                             each of the 48 actions. We were provided with
                             documentation showing, as of August 10, 2004, some BSM
                             Challenges Plan actions were reopened and others had
                             additional follow-up activities planned (see Chart 3).
                             However, IRS officials informed us these new and
                             additional follow-up activities were not being tracked using
                             the ITRAC database.
                             During preliminary discussions of this report, we were also
                             informed the IRS had taken actions after our fieldwork was
                             complete to inform the OMB and the GAO of the remaining
                             work that needed to be performed on the BSM Challenges
                             Plan.




                             9
                                 The 44 closed actions include 5 actions that were merged.
                                                                                             Page 9
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed

                                 Chart 3: Comparison of BSM Challenges Plan Actions on
                                            May 1, 2004, and August 10, 2004




                             Source: TIGTA analysis.

                             We agree with the IRS’ action to reopen and add new
                             activities to ensure BSM Challenges Plan actions are truly
                             complete. Based on this new analysis, 8 of the 10 actions
                             we determined were closed prematurely had new or
                             follow-up activities concerning the areas we identified as
                             needing to be addressed before the actions could be closed.
                             For the two remaining actions, we provided information to
                             the ACIO, Modernization Management, for his
                             consideration. See Appendix VIII for further information
                             on these 10 actions.

                             Recommendations

                             To ensure the IRS can objectively determine whether
                             process improvement actions are leading to improvement in
                             the BSM program, stakeholders are updated on the BSM
                             Challenges Plan status, and new BSM Challenges Plan
                             activities are monitored and tracked to closure, the CIO
                             should:
                             2. Create an overall measurement plan to determine
                                whether the activities in the seven KFAs are leading to
                                improvements in the BSM program by developing
                                specific measurement criteria for each of the HPIs
                                (where possible).


                                                                                  Page 10
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed

                                Management’s Response: The BSM program will be
                                developing measures similar to those outlined in our
                                report. For example, measures concerning cost and
                                schedule variance, requirements stability, and
                                requirements delivered will be implemented in Fiscal
                                Year 2005.
                             3. Ensure stakeholders understand additional work is
                                necessary to complete actions in the BSM Challenges
                                Plan beyond what was originally reported.
                                Management’s Response: Presentations have been
                                made to the stakeholder community, such as the OMB
                                and the GAO, on the status of improvement plans.
                             4. Place new activities in the ITRAC database for tracking
                                and closure purposes based on the recent analysis of the
                                BSM Challenges Plan status.
                                Management’s Response: The ITRAC database has
                                been updated with information on new, ongoing, and
                                closed activities.




                                                                                 Page 11
          The Internal Revenue Service Should Ensure the Root Causes of Business Systems
                  Modernization Performance Problems Are Successfully Addressed

                                                                                                   Appendix I


                           Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the Internal Revenue Service
(IRS) had taken actions to address the recommendations made by various studies during
Calendar Year 20031 for improving the Business Systems Modernization (BSM) program and
had developed a plan to measure the success of these actions.
To accomplish these objectives, we:
     I. Determined whether the 48 actions in the BSM Challenges Plan fully satisfied the
        recommendations from the 4 recent studies.
             A. Determined the mission and roles/responsibilities of the BSM Challenges Plan
                oversight team.
             B. Determined whether the 48 actions were mapped to the recommendations from the
                4 recent studies.
             C. Reviewed the 48 actions to determine whether the activities included under each
                action completely addressed the related conditions identified in the 4 recent studies.
    II.     Determined whether the IRS identified measures to ensure that conditions noted in the
            four recent studies were corrected.
             A. Determined whether the IRS identified metrics that could measure the effect of the
                corrective actions on each study recommendation.
             B. Determined what process the IRS was using to follow up on these actions.




1
  In mid-2003, the IRS and the PRIME contractor (the Computer Sciences Corporation) initiated four studies to help
identify the root causes of the problems hindering the BSM effort and make recommendations to remedy the
problems identified. Key IRS executives and stakeholders reviewed the results of the four studies and created
actions to address the study recommendations. These actions collectively became known as the BSM Challenges
Plan.




                                                                                                         Page 12
   The Internal Revenue Service Should Ensure the Root Causes of Business Systems
           Modernization Performance Problems Are Successfully Addressed

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
Paul M. Mitchell, Lead Auditor
Steven W. Gibson, Auditor
Perrin T. Gleaton, Auditor




                                                                                         Page 13
   The Internal Revenue Service Should Ensure the Root Causes of Business Systems
           Modernization Performance Problems Are Successfully Addressed

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Deputy Associate Chief Information Officer, Business Integration OS:CIO:B:BI
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 14
    The Internal Revenue Service Should Ensure the Root Causes of Business Systems
            Modernization Performance Problems Are Successfully Addressed

                                                                                                       Appendix IV


         Study Recommendations Not Addressed or Only Partially Addressed
              by the Business Systems Modernization Challenges Plan

We determined three study recommendations were not addressed as part of the Business Systems
Modernization (BSM) Challenges Plan. We also determined nine study recommendations were
only partially addressed by the BSM Challenges Plan.
Study Recommendations Not Addressed by the BSM Challenges Plan
         1. Better allocate responsibility for certain BSM management functions (budget, audits,
            personnel, contracting).
         2. Use more realistic assumptions for testing estimates/plans/schedules.
         3. Request spend plan changes in a timely manner – eliminate funding emergencies.
Study Recommendations Only Partially Addressed by the BSM Challenges Plan
         1. Enforce compliance for requirement definition and program management processes.
            This recommendation was unsupported by any documented activity to require
            Enterprise Life Cycle (ELC)1 training for both Computer Sciences Corporation
            (CSC)2 and Internal Revenue Service (IRS) personnel.
         2. Clarify and streamline decision authority. This recommendation was unsupported by
            any documented activity to explain how to split client management, program
            management, and technical leadership (CSC and IRS).
         3. Bolster broadly defined skill areas/personnel (focus on business
            integration/transition). This recommendation was unsupported by any documented
            activities to (1) expand tax administration experts at the CSC at the program level,
            (2) assign domain experts and change agents to the “Tiger Teams,”3 and (3) integrate
            Information Technology Services personnel into PRIME development and testing.
         4. Improve subcontractor accountability and delivery by restructuring subcontractor
            model. This recommendation was unsupported by any documented activities to
            (1) have the CSC conduct technical audits of all current work, (2) require “Tiger
            Teams” to drive resolution of key decisions at all project levels, (3) have the CSC
            reinvigorate the escalation process with subcontractor senior management, (4) have


1
  BSM processes and procedures are documented within the ELC. See Appendix V for an overview of the ELC.
2
  To facilitate success of its modernization efforts, the Internal Revenue Service hired the CSC as the PRIME
contractor and integrator for the BSM program and created the BSM Office to guide and oversee the work of the
PRIME contractor.
3
  “Tiger Teams” are short duration teams that are intended to establish a forum for escalating issues, facilitate the
rapid escalation of issues, and gain commitments from managers to address escalated issues quickly.
                                                                                                               Page 15
    The Internal Revenue Service Should Ensure the Root Causes of Business Systems
            Modernization Performance Problems Are Successfully Addressed

             the CSC review the conditions/criteria for subcontractor engagement, and (5) have the
             CSC reinvigorate the ongoing communications process with subcontractors.
        5. Institutionalize Systems Engineering. This recommendation was unsupported by any
           documented activities to (1) have the IRS lead an integrated team to define, monitor,
           manage, and support operational security across the Customer Account Data Engine
           (CADE),4 Modernization, and Current Processing Environment;5 (2) have the IRS and
           the PRIME contractor define customer requirements or analyze requirements for
           implications on the CADE architecture and infrastructure; and (3) have the PRIME
           contractor use prototyping during the development process to validate complex
           requirements.
        6. Validate Business Rules Engines. This recommendation was unsupported by any
           documented activity to have the PRIME contractor explore C++, another high-level
           language, or other business rules engine approaches as risk mitigation design
           alternatives.
        7. Institutionalize Management Discipline. This recommendation was unsupported by
           any documented activities to have the IRS and the PRIME contractor (1) improve
           their ability to jointly create realistic cost and schedule estimates and (2) establish
           mechanisms to independently validate and monitor cost and schedule estimates.
        8. Examine the Office of Modernization Acquisition and centrally locate all essential
           resources necessary to fully support the PRIME in one organization, headed by a
           Senior Executive Service Department of Defense (DoD) DAWIA6 Level 3 System
           Acquisition Program and Contracting Specialist. This recommendation was
           unsupported by any documented activity to require the BSM Acquisition Executive to
           be a DoD DAWIA Level 3 System Acquisition Program and Contracting Specialist.
           Also, the selection of this individual had not yet occurred.
        9. Redefine the PRIME contract with the CSC to reflect desired roles. This
           recommendation was unsupported by any documented activity to have the IRS
           redefine the PRIME contract.




4
  The CADE is the foundation for managing taxpayer accounts in the IRS’ modernization plan.
5
  The current processing environment refers to the information technology currently used to process tax information.
6
  Defense Acquisition Workforce Improvement Act, Pub. L. No. 101-510.




                                                                                                           Page 16
    The Internal Revenue Service Should Ensure the Root Causes of Business Systems
            Modernization Performance Problems Are Successfully Addressed

                                                                                                      Appendix V


                                     Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.

ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
    Life-Cycle Processes, which are organized into phases and subphases and which address all
    domains of business change.
    Management Processes, which are organized into management areas and which operate
    across the entire life cycle.




1
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
oversee the work of the PRIME contractor.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.
                                                                                                              Page 17
           The Internal Revenue Service Should Ensure the Root Causes of Business Systems
                   Modernization Performance Problems Are Successfully Addressed

                                                       Enterprise Life-Cycle Processes


                                      IRS Governance and Investment Decision Management
    Management




                                               Program Management and Project Management

                                      Architectural Engineering / Development Coordination

                                                       Management Support Processes


                                                                                                    Business Processes




                                                                                                                             Operations & Support
                                                                                                            Applications
                  Vision & Strategy




                                                        Development
                                        Architecture




                                                                                    Deployment
                                                                      Integration
    Life Cycle




                                                                                                                    Data


                                                                                                 Organizational Change


                                                                                                 Technical Infrastructure


                                                                                                 Facilities Infrastructure


Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
•                Vision and Strategy - This phase establishes the overall direction and priorities for
                 business change for the enterprise. It also identifies and prioritizes the business or system
                 areas for further analysis.
•                Architecture - This phase establishes the concept/vision, requirements, and design for a
                 particular business area or target system. It also defines the releases for the business area
                 or system.


                                                                                                                                                Page 18
    The Internal Revenue Service Should Ensure the Root Causes of Business Systems
            Modernization Performance Problems Are Successfully Addressed

•      Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
•      Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine whether they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
•      Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
•      Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
•      IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
•      Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
•      Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.


                                                                                           Page 19
    The Internal Revenue Service Should Ensure the Root Causes of Business Systems
            Modernization Performance Problems Are Successfully Addressed

•      Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of systems development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
•      Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and systems development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
•      Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
•      Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
•      Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The system is
       integrated with other business systems and tested, piloted (usually), and prepared for
       deployment. The primary decision at Milestone 4 is to authorize the release for
       enterprise-wide deployment and commit the necessary resources.
•      Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
       activities leading up to Milestone 5, the business solution is fully deployed, including
       delivery of training on use and maintenance. The primary decision at Milestone 5 is to
       authorize the release of performance-based compensation based on actual, measured
       performance of the business system.
                                                                                           Page 20
    The Internal Revenue Service Should Ensure the Root Causes of Business Systems
            Modernization Performance Problems Are Successfully Addressed

                                                                                                    Appendix VI


                        Key Focus Areas and Highest Priority Initiatives

The Associate Chief Information Officer, Modernization Management, established 7 high-level
key focus areas and developed 16 detailed highest priority initiatives to improve the Business
Systems Modernization (BSM) program.
         Key Focus Areas
         1.   Staffing and Skills.
         2.   Contractor Management.
         3.   Requirements and Demand Management.
         4.   Systems Engineering.
         5.   Project Management Disciplines.
         6.   Communication and Collaboration.
         7.   Empowerment/Accountability.

         Highest Priority Initiatives (Completion over 6 months 8/1/2004 - 1/30/2005)
         1. Staffing and Skills.
            a. Strengthen Internal Revenue Service (IRS) system engineering capability through
                external hiring or leverage of additional [contractor] capabilities.
            b. Strengthen IRS program and project manager cadre.
            c. Complete the human capital strategy (develop detailed recruiting plan).
         2. Contractor Management.
            a. Assess the elements of the PRIME contractor’s1 program role and make
                modifications as required.
            b. Strengthen the negotiation process through establishment of negotiating teams
                and use of performance-based contracting techniques.
         3. Requirements and Demand Management.
            a. Refine the change request process.
            b. Improve the configuration management practices.
            c. Modify the Modernization and Information Technology Services (MITS)
                Configuration Management (CM) Directive and procedures . . . ensuring that the
                MITS organization CM processes are implemented throughout the IRS . . . and
                coordinated with the BSM Office (BSMO)2 and that CM deficiencies are
                appropriately addressed.


1
  To facilitate the success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the
PRIME contractor and integrator for the Business Systems Modernization program.
2
  The IRS created the BSMO to guide and oversee the work of the PRIME contractor.
                                                                                                             Page 21
      The Internal Revenue Service Should Ensure the Root Causes of Business Systems
              Modernization Performance Problems Are Successfully Addressed

                d. Modify the MITS CM Directive and procedures to establish governance policies,
                   similar to those used by the BSMO, for defining the authority level and threshold
                   criteria to approve and control changes to the production environment in the
                   Information Technology Services (ITS) organization.
                e. Create a Requirements Management Office.
                f. Hire/contract for a requirements management lead.
           4.   Systems Engineering.
                a. Hire a technical lead for the Program.
                b. Start revalidation of the Customer Account Data Engine (CADE)3 approach and
                   architecture.
           5.   Project Management Disciplines.
                a. Institutionalize BSM program reviews, including ongoing reviews of projects,
                   infrastructure, engineering, process and financial elements.
           6.   Communication and Collaboration.
                a. Establish periodic communications between BSM Program leadership to all BSM
                   personnel (including contractors).
                b. Establish an ITS project office to support new application transition to operations.
           7.   Empowerment/Accountability.4




3
    The CADE is the foundation for managing taxpayer accounts in the IRS’ modernization plan.
4
    No high-priority issues were identified for the Empowerment/Accountability key focus area.



                                                                                                 Page 22
    The Internal Revenue Service Should Ensure the Root Causes of Business Systems
            Modernization Performance Problems Are Successfully Addressed

                                                                                                    Appendix VII


          Example Measures for Evaluating Business Systems Modernization
                             Challenges Plan Actions

The following table shows a few examples of possible measures that could have been used to
measure the effect of actions taken as part of the Internal Revenue Service’s (IRS) Business
Systems Modernization (BSM) Challenges Plan.

                      Table 1: Possible Measures That Could Have Been Used to Measure
                               the Effectiveness of BSM Challenges Plan Actions
BSM Challenges Plan Action                                  Possible Measure
Implement short duration, discrete “Tiger                   Trend in the Transition Management
Teams”1 in the Customer Account Data Engine                 Assessment5 ratings for modernization
(CADE),2 Integrated Financial System (IFS),3                projects.
and e-Services.4
Align critical engineering talent to the most               Trend in the requirements stability and defect
critical projects.                                          rates.
Move acceptance testing earlier in the                      Trend in the defects noted in the later stages of
lifecycle.                                                  acceptance testing.
                                                            Trend in the amount of time spent in the testing
                                                            phase.
Increase understanding by the development                   Trend in the percentage of defects introduced
team of what they are building.                             due to a lack of understanding requirements.
Clearly define business requirements and                    Trend in requirements stability.
tightly manage them to control scope (e.g.,                 Trend in the use of firm fixed-price task orders
Enterprise Life Cycle (ELC)6 milestone 4a).7                for projects in the later stages of development
                                                            and testing.

1
  “Tiger Teams” are short duration teams that are intended to establish a forum for escalating issues, facilitate the
rapid escalation of issues, and gain commitments from managers to address escalated issues quickly.
2
  The CADE is the foundation for managing taxpayer accounts in the IRS’ modernization plan.
3
  The IFS is intended to address administrative financial management weaknesses.
4
  The e-Services project provides a set of web-based business products as incentives to third parties to increase
electronic filing, in addition to providing electronic customer account management capabilities to all businesses,
individuals, and other customers.
5
  The Transition Management Assessment rating is based on the monthly Transition Readiness Report (TRR). The
TRR provides a summary of IRS organizations’ readiness to use, operate, and maintain modernized business
capabilities and is intended to focus management attention on transition gaps, issues, and risks.
6
  BSM processes and procedures are documented within the ELC. See Appendix V for an overview of the ELC.
7
  Milestone 4a refers to a new milestone being created in the ELC. In this milestone, the IRS plans to make
adequate time and effort to ensure that specifications based on business requirements are fully developed. By
ensuring requirements are fully developed, the IRS plans to significantly increase the opportunities for the use of
fixed-price contracts.
                                                                                                             Page 23
    The Internal Revenue Service Should Ensure the Root Causes of Business Systems
            Modernization Performance Problems Are Successfully Addressed

BSM Challenges Plan Action                              Possible Measure
Implement firm fixed-price policy for                   Trend in the use of firm fixed-price task orders.
Milestones 4 and 5.                                     Trend in BSM program cost variance.
Strengthen IRS Program and Project Manager              Trend in cost and schedule variances.
Cadre.
Implement enhanced subcontractor                        Trend in the numerical quarterly evaluations of
management model.                                       the subcontractors.
Reduce the number of projects being                     Trend in the number of projects and resources
conducted at the same time.                             being overseen.
Ensure projects strictly follow the ELC and             Trend in the number of quality assurance
appropriate alternatives within the ELC are             findings concerning ELC noncompliance.
selected.
Source: BSM Challenges Plan Close-Out Report and Treasury Inspector General for Tax Administration analysis.




                                                                                                     Page 24
     The Internal Revenue Service Should Ensure the Root Causes of Business Systems
             Modernization Performance Problems Are Successfully Addressed

                                                                                                 Appendix VIII


                Business Systems Modernization Challenges Plan Actions
                            That Were Closed Prematurely

We determined that 10 Business Systems Modernization (BSM) Challenges Plan actions were
closed with significant activities remaining. The Associate Chief Information Officer (ACIO),
Modernization Management, and his staff performed an analysis of the BSM Challenges Plan
and the activities taken to close each of the 48 actions. We were provided with documentation
showing, as of August 10, 2004, some BSM Challenges Plan actions were reopened and others
had additional follow-up activities planned. Based on this new analysis, 8 of the 10 actions we
determined were closed prematurely had new or follow-up activities concerning the areas that we
identified as needing to be addressed before the actions could be closed. For the two remaining
issues, we provided information to the ACIO, Modernization Management, for his consideration.
      Table 1: Ten of the ‘Closed’ Actions That Still Had Significant Work Activities to Be Completed
                                                                    New or                Provided to the
                                                                   Follow-on                  ACIO,
                                                                   Activities              Modernization
      Actions Closed With Significant Work                      Identified (as of         Management, for
      Remaining                                                     8/10/04)               Consideration
1.    Align critical engineering talent to the most
                                                                         X
      critical projects.
2.    Refine the change request process.                                                            X
3.    Strengthen Internal Revenue Service (IRS)
      systems engineering capability through
                                                                         X
      external hiring or leverage MITRE1/NGMS2
      capabilities.
4.    Determine the appropriate skills/sizing and
      “Right-size” contracting organization in the                       X
      IRS and CSC.3
5.    Assign business owners and architects to
      validate business unit participation and                           X
      accountability in projects.
6.    Establish a BSM Acquisition Executive.                             X
7.    Co-locate resources (both senior program
                                                                                                    X
      managers and project personnel).


1
  The MITRE Corporation (MITRE) is under contract to assist the IRS with the systems modernization.
2
  Northrop Grumman Mission Services (NGMS) is a leading Federal information technology services contractor.
3
  To facilitate the success of its modernization efforts, the IRS hired the Computer Sciences Corporation (CSC) as
the PRIME contractor and integrator for the Business Systems Modernization program.
                                                                                                            Page 25
      The Internal Revenue Service Should Ensure the Root Causes of Business Systems
              Modernization Performance Problems Are Successfully Addressed

                                                                  New or             Provided to the
                                                                 Follow-on               ACIO,
                                                                 Activities           Modernization
    Actions Closed With Significant Work                      Identified (as of      Management, for
    Remaining                                                     8/10/04)            Consideration
8. Integrate management disciplines across the
                                                                      X
    program.
9. Strengthen IRS program and project manager
                                                                      X
    cadre.
10. Ensure projects strictly follow the Enterprise
    Life Cycle (ELC)4 and appropriate                                 X
    alternatives within the ELC are selected.
Source: Treasury Inspector General for Tax Administration analysis.




4
    BSM processes and procedures are documented within the ELC. See Appendix V for an overview of the ELC.
                                                                                                     Page 26
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed

                                                                   Appendix IX


                Management’s Response to the Draft Report




                                                                         Page 27
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed




                                                                         Page 28
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed




                                                                         Page 29
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed




                                                                         Page 30
The Internal Revenue Service Should Ensure the Root Causes of Business Systems
        Modernization Performance Problems Are Successfully Addressed




                                                                         Page 31
